HHS/OIG, Audit -"Review of New York Medicaid Nursing Home Ancillary and Durable Medical Equipment Payments,"(A-02-02-01025)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of New York Medicaid Nursing Home Ancillary and Durable Medical Equipment Payments," (A-02-02-01025)
September 15, 2003
Complete
Text of Report is available in PDF format (1.06 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to identify inappropriate Medicaid payments to ancillary service and durable medical equipment
(DME) providers for beneficiaries residing in nursing homes whose all-inclusive rate incorporated the costs of such services.  In
general, the New York State Department of Health (Health) had sufficient controls in place to ensure that duplicate payments
were not made for physical therapy, occupational therapy, speech and language pathology, as well as dental services provided
to Medicaid beneficiaries residing in nursing homes.  However, Health did not have sufficient controls to ensure that
DME providers did not separately bill Medicaid for DME it provided to nursing home residents.  We estimate that Health
made improper payments to DME providers totaling at least $1,212,805 ($606,403 Federal share).  We recommended that
Health (1) refund $606,403 to the Federal Government for its share of the identified overpayments; (2) ensure that DME
providers bill the nursing home rather than Medicaid for services included in the nursing home rate by requiring the Medicaid
reviewer, during their prior approval process, to determine whether Medicaid or the nursing home is responsible for payment;
(3) issue guidance to DME providers specifying that augmentative communication devices are not custom-made and therefore,
not separately billable to Medicaid for nursing home residents; (4)  instruct DME providers not to refill any prescriptions
without the beneficiarys or their representatives authorization, and; (5)  prospectively, calculate Medicaid per
diem rates to more closely reflect the changes in medical technology and nursing home operating costs.